                 Department of Veterans Affairs
                 Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03422-99


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

      Louis Stokes Cleveland 

         VA Medical Center 

          Cleveland, Ohio 





March 24, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       facility   Louis Stokes Cleveland VA Medical Center
                       FY         fiscal year
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       PCP        primary care provider
                       RN         registered nurse
                       VA         Veterans Administration
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                      CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              21

  F. Report Distribution .............................................................................................            22

  G. Endnotes ...........................................................................................................         23





VA OIG Office of Healthcare Inspections
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCC) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the weeks of December 2 and December 16,
2013, at the following CBOCs, which are under the oversight of the Louis Stokes
Cleveland VA Medical Center and Veterans Integrated Service Network 10:

    East Liverpool/Calcutta CBOC, Calcutta, OH

    McCafferty CBOC, Cleveland, OH

    Warren CBOC, Warren, OH

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care and Designated Women’s Health Providers’ Proficiency reviews.
However, we made recommendations in the following two review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff consistently complete diagnostic assessments for patients with a positive
      alcohol screen.

	    Staff consistently document the offer of further treatment to patients diagnosed with
      alcohol dependence.

	    Registered Nurse Care Managers receive motivational interviewing and health
      coaching training within 12 months of appointment to Patient Aligned Care Team.

Medication Management. Ensure that CBOC/PCC staff:

	    Document completion of medication reconciliation for each episode of care for which
      medications were administered, prescribed, or modified.

	    Provide written medication information that includes the prescribed fluoroquinolones.

	    Document the evaluation of patient’s level of understanding for the medication
      education.




VA OIG Office of Healthcare Inspections                                                       i
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16-20, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                       ii
                     CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                           1
                   CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


Table 1. CBOC/PCC Focused Reviews and Study Populations
      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                          CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the
East Liverpool/Calcutta, McCafferty, and Warren CBOCs. The table below shows the areas
reviewed for this topic.     The facility generally met requirements.   We made no
recommendations.
Table 2. EOC
NM                      Areas Reviewed                                     Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed in high-risk areas (e.g., MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from
       unauthorized access.


VA OIG Office of Healthcare Inspections                                                                3
                          CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


NM               Areas Reviewed (continued)                                Findings
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period).
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                                4
                          CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD
NM                    Areas Reviewed                                          Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 4 of 39 patients who had positive alcohol use
                                                          screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for 4 of 8 patients diagnosed
       dependence.                                        with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 30 (36 percent) of 84 RN Care
       received MI training within 12 months of           Managers did not receive MI training within 12
       appointment to PACT.                               months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 53 (63 percent) of 84 RN Care
       received VHA National Center for Health            Managers did not receive health coaching
       Promotion and Disease Prevention-approved          training within 12 months of appointment to
       health coaching training (most likely TEACH        PACT.
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.




VA OIG Office of Healthcare Inspections                                                                       5
                          CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


2. We recommended that CBOC/PCC staff consistently document the offer of further
treatment to patients diagnosed with alcohol dependence.

3. We recommended that CBOC/PCC RN Care Managers receive MI and health coaching
training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                6
                          CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones
NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 7 of 27 applicable patient
                                                         EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that 19 of 27
       medications was provided at the end of the        applicable patients received written information
       outpatient encounter.                             that included the fluoroquinolone.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 10 of 27 applicable patients.
       education provided.
       The facility complied with local policy.

Recommendations

4. 	 We recommended that staff document that medication reconciliation was completed at each
     episode of care where the newly prescribed fluoroquinolone was administered, prescribed,
     or modified.

5.	 We recommended that staff consistently provide written medication information that
    includes the fluoroquinolone.

6. 	 We recommended that staff document the evaluation of patient’s level of understanding for
     the medication education.




VA OIG Office of Healthcare Inspections                                                                     7
                          CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency
NM                    Areas Reviewed                                       Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Module.




VA OIG Office of Healthcare Inspections                                                                8
                                                                CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                                                                    Appendix A


                                                                   CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversightc.
The table below provides information relative to each of the CBOCs.

                                                                                  Uniquesd                                    Encountersd

                             Station                  CBOC
       Location      State              Localitye                    MHg       PCh        Otheri       All       MHg         PCh       Otherj       All
                                #                      Sizef
    Canton           OH      541BY       Urban      Very Large      2,236      9,118     22,458      23,818     17,179     27,369      65,758    110,306
    Parma            OH      541GL       Urban      Very Large      4,145      8,889     20,350      23,071     39,275     26,762      78,690    144,727
    Akron            OH      541GG       Urban      Very Large      3,239     10,877     11,617      14,129     28,541     35,438      68,813    132,792
    Lorain           OH      541GB       Urban      Very Large      1,630      6,415      9,479      11,247      9,921     21,378      28,215     59,514
    Youngstown       OH      541BZ       Urban      Very Large      2,289      7,994      8,412      10,271     15,162     30,128      40,735     86,025
    Mansfield        OH      541GD       Urban         Large        1,855      6,496      5,478      6,916      18,067     21,684      25,114     64,865
    Painesville      OH      541GF       Urban         Large        1,197      5,929      4,653      6,730       6,311     17,846      17,535     41,692
    Sandusky         OH      541GC       Rural         Large         892       3,914      3,489      5,092       5,091     12,264      9,040      26,395
    Warren           OH      541GI       Urban       Mid-Size        858       3,717      2,920      3,966       6,523     13,254      10,541     30,318
    New
                     OH      541GJ       Rural       Mid-Size        728       2,905      2,700      3,529       4,057      7,885      12,431     24,373
    Philadelphia
    Ravenna          OH      541GK       Urban       Mid-Size        832       3,150      2,331      3,430       4,903     10,809      6,566      22,278
    East Liverpool   OH      541GH       Rural       Mid-Size        904       2,635      2,205      2,793       5,492      9,608      8,987      24,087
    McCafferty       OH      541GE       Urban       Mid-Size        764       2,048      1,553      2,465       2,023      5,230      3,835      11,088


c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    9
                   CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


                                  CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                             Tele-Health
            CBOC         Specialty Care Servicesk           Ancillary Servicesl
                                                                                              Servicesm
    Canton                      Optometry                       Laboratory                Tele Primary Care
                                 Podiatry                       Radiology
                                Pain Clinic             Diabetic Retinal Screening
                               Dermatology                 Prosthetics/Orthotics
                                                            MOVE! Programn
                                                                 Nutrition
                                                           Electrocardiography
                                                           Prosthetics/Orthotics
                                                        Pulmonary Function Test
                                                                Pharmacy
                                                                 Nutrition
    Parma                      Optometry                        Radiology                 Tele Primary Care
                               Cardiology                     Rehabilitation                  Tele Case
                                Podiatry                        Audiology                   Management
                               Neurology                 Computer Tomography
                               Pulmonary                     MOVE! Program
                            Gastroenterology              Magnetic Resonance
                                Oncology                         Imaging
                           Medicine Specialties            Prosthetics/Orthotics
                             Rheumatology                  Electrocardiography
                              Nephrology                         Nutrition
                               Pain Clinic              Pulmonary Function Test
                              Dermatology                     Diabetes Care
                                                        Diabetic Retinal Screening
                                                             Sleep Medicine
                                                                        o
                                                                  VIST
                                                            Speech Pathology
                                                                Pharmacy
    Akron                       Optometry                     Rehabilitation              Tele Primary Care
                                 Podiatry                       Radiology
                              Rheumatology                 Electrocardiography
                                Pain Clinic                  MOVE! Program
                                Cardiology                       Nutrition
                               Dermatology              Diabetic Retinal Screening
                              Rehabilitation               Prosthetics/Orthotics
                                                                Audiology
                                                        Pulmonary Function Test
                                                              Hypertension

j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC. 

k
  Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

l
  Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

o
  The Visual Impairment Services Team (VIST) is a group of case managers that coordinate services for severely
disabled and visually impaired Veterans and active duty service members.

VA OIG Office of Healthcare Inspections                                                                       10
                     CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH

                                                             VIST
                                                           Pharmacy
    Lorain                      Optometry          Diabetic Retinal Screening   Tele Primary Care
                                 Podiatry                  Radiology
                                                         Rehabilitation
                                                        MOVE! Program
                                                            Nutrition
                                                      Electrocardiography
                                                           Pharmacy
    Youngstown                   Podiatry                  Radiology            Tele Primary Care
                                Optometry                Rehabilitation
                                Pain Clinic             MOVE! Program
                               Dermatology            Electrocardiography
                                                      Prosthetics/Orthotics
                                                            Nutrition
                                                             VIST
                                                            Nutrition
                                                         Diabetes Care
                                                           Audiology
    Mansfield                    Podiatry             Electrocardiography       Tele Primary Care
                                Optometry                   Nutrition
                                Pain Clinic             MOVE! Program
                                Cardiology         Pulmonary Function Test
                                                   Diabetic Retinal Screening
    Painesville                  Podiatry                   Nutrition           Tele Primary Care
                                Optometry               MOVE! Program
                                Pain Clinic           Electrocardiography
                               Dermatology         Diabetic Retinal Screening
    Sandusky                     Podiatry             Prosthetics/Orthotics     Tele Primary Care
                                Optometry          Diabetic Retinal Screening
                                                            Nutrition
                                                        MOVE! Program
    Warren                       Podiatry                   Nutrition           Tele Primary Care
                                Optometry             Electrocardiography
                                                        MOVE! Program
                                                   Diabetic Retinal Screening
    New Philadelphia             Podiatry                   Nutrition           Tele Primary Care
                                Optometry               MOVE! Program
                                                   Diabetic Retinal Screening
                                                      Electrocardiography
                                                      Prosthetics/Orthotics
    Ravenna                     Optometry             Electrocardiography       Tele Primary Care
                                 Podiatry               MOVE! Program
                                                            Nutrition
                                                   Diabetic Retinal Screening
    East Liverpool              Optometry             Electrocardiography       Tele Primary Care
                                 Podiatry             Prosthetics/Orthotics
                                                            Nutrition
                                                        MOVE! Program
    McCafferty                      ---                     Nutrition           Tele Primary Care

 




VA OIG Office of Healthcare Inspections                                                             11
                                                                                             CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                                                                                                 Appendix B


                                                                                         PACT Compass Metrics

                                                                    FY 2013 Average 3rd Next Available in PC Clinics
                             50.0
                             45.0
                             40.0
  Average Number of Days




                             35.0
                             30.0
                             25.0
                             20.0
                             15.0
                             10.0
                               5.0
                               0.0
                                                                                                                                                          East                   New
                                      VHA     Cleveland   Canton    Youngstown    Lorain   Sandusky   Mansfield   McCafferty   Painesville    Akron                Warren                   Ravenna    Parma
                                                                                                                                                       Liverpool             Philadelphia
                                      Total     (541)     (541BY)     (541BZ)    (541GB)    (541GC)   (541GD)      (541GE)      (541GF)      (541GG)               (541GI)                  (541GK)   (541GL)
                                                                                                                                                       (541GH)                 (541GJ)
                           OCT FY13   14.6      22.4       33.9        26.4       11.2       16.0       21.7         5.7          22.2        17.8        6.4       15.4         13.4        14.3      27.1
                           NOV FY13   15.2      39.6       20.9        20.8        9.8       8.0        14.4         4.8          20.4        20.0        5.6       17.2          5.7        14.9      28.0
                           DEC FY13   13.8      20.2       12.1        18.7       10.0       9.5        14.1         5.7          17.2        13.4        5.8        7.5          6.4        10.2      37.0
                           JAN FY13   14.0      20.9       16.0        20.4       13.7       15.9       15.1         5.6          16.6        32.9        5.1       11.5         11.9         8.6      28.5
                           FEB FY13   14.8      24.6       17.6        27.8       15.2       35.0       25.9         14.9         21.5        26.3        9.9       17.2         14.0        14.8      35.7
                           MAR FY13   13.3      44.9       14.5        23.1       13.6       22.1       26.8         9.0          16.3        23.9        6.6       15.1         15.2        15.9      37.3
                           APR FY13   14.4      29.3       15.6        24.6       13.8       30.3       30.9         6.7          12.8        27.3        7.1       11.6         16.2        20.2      37.7
                           MAY FY13   16.0      37.4       15.5        23.5       18.0       28.3       32.7         9.1          13.7        29.5        6.3       15.7         13.7        22.2      35.6
                           JUN FY13   14.2      15.8       27.3        20.5       18.2       20.9       27.9         10.9         16.5        23.2       13.4       14.4          7.0        23.1      31.4
                           JUL FY13   14.6      17.4       19.7        22.6       13.9       16.4       28.8         43.4         22.4        17.9        8.5       18.5         12.0        26.3      30.5
                           AUG FY13   15.7      37.0       20.9        23.1       16.0       21.3       41.9         18.7         16.3        21.3       12.0       15.9         17.2        24.7      28.0
                           SEP FY13   13.4      16.4       20.8        25.2       11.2       9.5        28.1         20.8         15.4        24.6        8.3       16.1          8.3        25.1      22.1
                                                                                                                                                                                                                      
Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.


VA OIG Office of Healthcare Inspections                                                                                                                                                                         12
                                                                                  CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


                                                         FY 2013 Established PC Prospective Wait Times 7 Days
                                             100%
          Percentage of Patients Scheduled
           Within 7 Days of Desired Date     80%

                                             60%

                                             40%

                                             20%

                                              0%
                                                    OCT FY13 NOV FY13 DEC FY13   JAN FY13   FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13 AUG FY13 SEP FY13
     VHA Total                                       83.5%    81.1%    82.4%      82.6%      83.2%    83.6%    84.0%    84.0%    84.1%      84.3%    84.5%    84.7%
     Cleveland (541)                                 91.4%    90.7%    91.9%      93.4%      93.3%    93.8%    92.7%    92.0%    90.6%      89.9%    80.7%    72.4%
     Canton (541BY)                                  79.9%    78.9%    84.0%      84.8%      91.1%    88.2%    84.3%    82.8%    86.1%      86.5%    86.0%    84.7%
     Youngstown (541BZ)                              91.5%    87.3%    86.3%      88.4%      89.0%    92.2%    90.5%    89.9%    91.0%      92.1%    92.5%    90.9%
     Lorain (541GB)                                  99.0%    97.9%    93.9%      96.0%      93.0%    97.9%    98.7%    98.1%    98.1%      97.2%    94.4%    91.8%
     Sandusky (541GC)                                87.0%    94.5%    97.8%     100.0%      96.9%    89.8%    95.0%    94.5%    95.4%      92.5%    89.5%    95.7%
     Mansfield (541GD)                               84.7%    85.5%    92.7%      90.3%      88.1%    90.5%    92.2%    90.3%    89.1%      88.3%    91.2%    83.8%
     McCafferty (541GE)                              97.6%    98.6%    96.6%      97.1%      93.9%    95.4%    91.4%    96.0%    98.1%      99.0%    98.6%    98.4%
     Painesville (541GF)                             91.7%    89.7%    88.9%      98.1%      92.7%    94.6%    98.4%    96.0%    100.0%     95.2%    99.1%    98.4%
     Akron (541GG)                                   96.2%    93.9%    91.5%      90.5%      90.7%    90.7%    85.1%    83.7%    87.1%      85.2%    82.0%    84.5%
     East Liverpool (541GH)                          99.3%    96.2%    98.5%      99.1%      98.4%    96.8%    97.5%    98.6%    100.0%    100.0%    96.4%    97.2%
     Warren (541GI)                                  84.3%    72.1%    74.9%      72.3%      74.3%    74.0%    74.7%    73.4%    76.4%      78.2%    73.4%    78.8%
     New Philadelphia (541GJ)                        97.1%    97.8%    96.0%      94.9%      97.2%    94.3%    96.4%    89.9%    93.6%      96.8%    92.4%    93.1%
     Ravenna (541GK)                                 97.0%    95.2%    95.5%      96.1%      97.2%    96.0%    94.9%    98.4%    98.1%      93.8%    93.9%    97.8%
     Parma (541GL)                                   92.5%    91.3%    89.7%      86.7%      85.4%    88.7%    90.6%    92.7%    93.8%      94.9%    96.3%    90.9%


Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.



VA OIG Office of Healthcare Inspections                                                                                                                               13
                                                                                    CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                                                                FY 2013 Ratio of ER Encounters While on Panel to
                                                                 PC Encounters While on Panel (FEE ER Included)
                                             30%
                                             28%
                                             26%
              Percentage of ER Encounters 
                                             24%
                                             22%
                   to PC Encounters


                                             20%
                                             18%
                                             16%
                                             14%
                                             12%
                                             10%
                                              8%
                                              6%
                                              4%
                                              2%
                                              0%
                                                   OCT FY13   NOV FY13   DEC FY13   JAN FY13   FEB FY13   MAR FY13   APR FY13   MAY FY13   JUN FY13   JUL FY13   AUG FY13   SEP FY13
        VHA Total                                   16.3%      16.3%      16.4%      16.3%      16.3%      16.3%      16.1%      16.1%      16.0%      15.9%      15.8%      15.7%
        Cleveland (541)                             28.3%      28.8%      29.2%      29.3%      29.3%      28.8%      28.9%      28.3%      27.9%      27.8%      27.7%      27.6%
        Canton (541BY)                              6.1%        6.1%      6.3%       6.3%       6.5%        6.6%      6.7%        6.5%      6.5%       6.4%        6.2%      6.1%
        Youngstown (541BZ)                          2.3%        2.3%      2.4%       2.3%       2.3%        2.3%      2.3%        2.3%      2.3%       2.2%        2.1%      2.1%
        Lorain (541GB)                              5.3%        5.4%      5.5%       5.5%       5.6%        5.6%      5.7%        5.8%      5.8%       5.8%        5.6%      5.4%
        Sandusky (541GC)                            3.1%        3.2%      3.3%       3.1%       3.2%        3.3%      3.3%        3.3%      3.2%       3.2%        3.1%      3.0%
        Mansfield (541GD)                           3.2%        3.2%      3.2%       3.2%       3.2%        3.3%      3.3%        3.3%      3.3%       3.3%        3.2%      3.2%
        McCafferty (541GE)                          17.2%      17.6%      18.0%      18.0%      18.2%      18.4%      18.4%      18.1%      18.6%      19.1%      19.6%      20.1%
        Painesville (541GF)                         8.4%        8.8%      9.2%       9.5%       9.6%        9.8%      9.6%        9.3%      9.1%       9.1%        9.1%      8.9%
        Akron (541GG)                               3.6%        3.7%      3.7%       3.6%       3.7%        3.8%      3.9%        4.0%      4.0%       3.9%        4.0%      3.8%
        East Liverpool (541GH)                      2.2%        2.1%      2.0%       2.0%       2.0%        2.1%      2.0%        2.0%      2.0%       1.9%        1.8%      1.7%
        Warren (541GI)                              2.4%        2.4%      2.5%       2.5%       2.4%        2.5%      2.5%        2.5%      2.6%       2.5%        2.5%      2.4%
        New Philadelphia (541GJ)                    3.8%        3.6%      3.5%       3.5%       3.6%        3.4%      3.3%        3.4%      3.5%       3.5%        3.7%      3.3%
        Ravenna (541GK)                             3.6%        3.8%      3.8%       3.9%       4.0%        4.2%      4.2%        4.1%      4.2%       4.3%        4.3%      4.3%
        Parma (541GL)                               12.0%      11.9%      12.3%      12.5%      12.5%      12.5%      12.5%      11.6%      11.6%      11.6%      11.8%      12.0%

Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s assigned
primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of primary care
encounters WOP with a provider other than the patient’s PCP/AP.
VA OIG Office of Healthcare Inspections                                                                                                                                                14
                                                                          CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


                                                    FY 2013 2‐Day Contact Post Discharge Ratio
    100%

     90%

     80%

     70%

     60%

     50%

     40%

     30%

     20%

     10%

       0%                                                                                                                              East                   New
                           Cleveland   Canton    Youngstown    Lorain   Sandusky   Mansfield   McCafferty   Painesville    Akron                Warren                   Ravenna    Parma
               VHA Total                                                                                                            Liverpool             Philadelphia
                             (541)     (541BY)     (541BZ)    (541GB)    (541GC)   (541GD)      (541GE)      (541GF)      (541GG)               (541GI)                  (541GK)   (541GL)
                                                                                                                                    (541GH)                 (541GJ)
    OCT FY13    52.8%       59.5%      60.4%       63.3%       71.2%     78.3%      77.3%        50.0%        60.9%        62.8%     76.5%      79.2%        75.0%        36.8%    62.8%
    NOV FY13    52.9%       57.2%      58.3%       55.3%       68.1%     76.9%      70.5%        60.0%        74.6%        63.6%     60.0%      48.4%        86.7%        28.6%    65.6%
    DEC FY13    51.5%       59.6%      39.4%       70.2%       61.1%     80.0%      71.4%        57.1%        75.0%        56.1%     46.7%      52.4%        40.0%        42.9%    59.7%
    JAN FY13    57.2%       66.5%      61.7%       81.0%       73.5%     70.6%      67.3%        50.0%        66.0%        83.1%     58.8%      70.6%        77.8%        33.3%    75.9%
    FEB FY13    60.4%       56.2%      48.3%       83.3%       69.0%     93.8%      69.0%        57.1%        68.3%        83.1%     84.6%      60.0%        87.5%        60.7%    72.1%
    MAR FY13    64.4%       65.0%      64.4%       77.6%       78.1%     81.0%      78.0%        62.5%        76.3%        73.6%     88.9%      89.5%        84.2%        75.0%    80.2%
    APR FY13    65.5%       69.1%      59.6%       83.9%       97.6%     100.0%     76.2%        55.6%        69.6%        80.8%     52.9%      96.2%        81.0%        53.3%     81.3%
    MAY FY13    66.1%       73.1%      60.0%       83.7%       67.4%     73.3%      78.9%       100.0%        58.3%        55.6%     69.2%      72.4%        88.2%        61.1%     78.9%
    JUN FY13    70.1%       78.3%      60.0%       90.2%       94.1%     93.3%      97.7%        90.0%        69.2%        73.8%     90.5%      76.5%        85.7%        66.7%    86.1%
    JUL FY13    71.1%       79.7%      81.0%       90.7%       90.6%     85.7%      73.3%        95.7%        97.5%        93.3%     93.8%      100.0%       77.8%        83.3%     92.3%
    AUG FY13    72.7%       77.3%      90.6%       95.7%       79.3%     78.6%      92.3%        96.0%        92.7%        97.4%     88.9%      94.1%        81.8%       100.0%     97.0%
    SEP FY13    68.9%       61.4%      85.7%       89.2%       78.6%     76.5%      75.8%        92.0%        92.1%        88.9%     85.7%      85.7%        81.8%        93.8%    88.9%




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                                                      15
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                     Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                 Memorandum


           Date:       March 5, 2014

          From:        Director, VA Healthcare System of Ohio (10N10)

       Subject: 	      CBOC and PCC Reviews of the Louis Stokes Cleveland
                       VA Medical Center, Cleveland, OH

             To:       Director, Baltimore Office of Healthcare Inspections (54BA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC

       1. I have reviewed and concur with the findings and recommendation in
          the report of the CBOC and PCC Reviews of the Louis Stokes
          Cleveland VA Medical Center in Cleveland, Ohio.

       2. If you have any questions or concerns, please contact Jane Johnson,
          Deputy Quality Management Officer (QMO) at (513) 247-4631.




VA OIG Office of Healthcare Inspections                                                      16
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       March 5, 2014

          From:        Director, Louis Stokes Cleveland VA Medical Center
                       (541/00)

       Subject:        CBOC and PCC Reviews of the Louis Stokes Cleveland
                       VA Medical Center, Cleveland, OH

             To:       Director, VA Healthcare System of Ohio (10N10)

       1. I have reviewed and concur with the findings and recommendations in
          the draft report of the Office of the Inspector General CBOC and PCC
          Reviews conducted the week of December 2, 2013.

       2. Corrective action plans have been	 established, with some being
          already implemented, and target completion dates have been set for
          the remaining items detailed in the attached report.




VA OIG Office of Healthcare Inspections                                                      17
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: June 30, 2014

Facility response: The Associate Chief of Staff for Ambulatory Care will review with
providers the need to complete diagnostic assessments for patients with a positive
alcohol screen. PACT nurses will alert providers of positive alcohol screens. The
Quality Management record review will be revised to include an indicator for monitoring
completion of diagnostic assessments for patients with a positive alcohol screen.
Routine monthly medical record audit results will be reported to the Associate Chief of
Staff for Ambulatory Care and the Clinical Informatics Committee when below 90%
threshold. This audit is part of our routine record reviews and is an ongoing quality
control process.

Recommendation 2. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.

Concur

Target date for completion: June 30, 2014

Facility response: The current clinical reminder for a positive alcohol screen needing
follow-up evaluation will be revised to include mandatory fields that require providers to
document an offer for further treatment, as well as patient response. Quality
Management audit results will be reported to the Associate Chief of Staff for Ambulatory
Care and the Clinical Informatics Committee when below 90% threshold. This audit is
part of our routine record reviews and is an ongoing quality control process.

Recommendation 3. We recommended that CBOC/PCC RN Care Managers receive
MI and health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: June 30, 2014




VA OIG Office of Healthcare Inspections                                                      18
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


Facility response: The current process for MI and health coaching training will be
revised to require participants to self-certify course completion in the VA Talent
Management System (TMS) upon course completion. The Associate Chief Nurses for
Ambulatory Care at the CBOCs and Wade Park will be responsible for ensuring there is
a printed certificate of completion for each CBOC/PCC RN Care Manager within 12
months of PACT appointment. Random audits will be done by Quality Management to
ensure ongoing compliance. MI and health coaching training compliance will be a
standing quarterly agenda item at the Executive Leadership Board.

Recommendation 4.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: June 30, 2014

Facility response: Fluoroquinolones will be limited to quick orders; the quick order
templates that will be created will require documentation of medication reconciliation
prior to being able to order fluoroquinolones. The Associate Chief of Staff for
Ambulatory Care will instruct all CBOC providers on the new quick orders and the
requirement for documentation of medication reconciliation when ordering
fluoroquinolones. Quality Management will revise the medical record review to include
an indicator to monitor documentation specific to medication reconciliation of
fluoroquinolones. Routine monthly medical record audit results will be reported to the
Clinical Informatics Committee when below 90% threshold. This audit is part of our
routine record reviews and is an ongoing quality control process.

Recommendation 5.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: June 30, 2014

Facility response: Fluoroquinolones will be limited to quick orders; the quick order
templates will require documentation of medication counseling/education prior to being
able to order fluoroquinolones. The Associate Chief of Staff for Ambulatory Care will
instruct providers of the need to document that written medication information specific to
fluoroquinolones was provided to the patient. Quality Management will revise the
medical record review to include an indicator to monitor documentation that written
medication information was provided to the patient. Routine monthly medical record
audit results will be reported to the Clinical Informatics Committee when below 90%
threshold. This audit is part of our routine record reviews and is an ongoing quality
control process.




VA OIG Office of Healthcare Inspections                                                      19
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH


Recommendation 6. We recommended that staff document the evaluation of patient’s
level of understanding for the medication education.

Concur

Target date for completion: June 30, 2014

Facility response: Fluoroquinolones will be limited to quick orders; the quick order
templates that will be created will require documentation of the patients’ level of
understanding of medication education prior to being able to enter the fluoroquinolone
order. Quality Management will revise the medical record review to include an indicator
to monitor documentation of fluoroquinolone education. Routine monthly medical
record audit results will be reported to the Clinical Informatics Committee when below
90% threshold. This audit is part of our routine record reviews and is an ongoing quality
control process.




VA OIG Office of Healthcare Inspections                                                      20
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Margie Chapin, RT (R, MR, CT), JD, Team Leader
Contributors            Melanie Oppat, MEd, LDN
Other                   Jennifer Christensen, DPM
Contributors            Donald Braman, RN, BSN
                        Terri Julian, PhD
                        Sonia Whig, MS, LDN
                        Lin Clegg, PhD
                        Nathan Fong, CPA, CFE
                        Matt Frazier, MPH, MBA
                        Cynthia Gallegos
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      21
                 CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                     Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Healthcare System of Ohio (10N10)
Director, Louis Stokes Cleveland VA Medical Center (541/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Rob Portman
U.S. House of Representatives: Steve Chabot, Marcia Fudge, Bob Gibbs, Bill Johnson,
 Jim Jordan, David Joyce, Marcy Kaptur, Bob Latta, Jim Renacci, Tim Ryan, Pat Tiberi,
 Mike Turner, Brad Wenstrup


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      22
                     CBOC and PCC Reviews at Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                         Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP) and Office of Veteran Health Education
   and Information (NVEI), Patient Education: TEACH for Success, 2010. Retrieved from
   http://www.prevention.va.gov/HealthPOWER_Prevention_News_Summer_2010_VHEI.asp on
   January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.



 




VA OIG Office of Healthcare Inspections                                                                    23
